 

 

In The
SUPREME COURT OF THE UNITED STATES
October Term 2021

Brad Jennings,
Application/Petitioner

Vv.
Daniel F. Nash, James Michael Rackley, Dallas County and George Knowles

 

Certificate of Service of Applicant’s Application for Extension of Time Within Which
to File a Petition for Writ of Certiorari

 

Comes now, Elizabeth Ramsey, counsel of record representing Brad Jennings,
Applicant in the above referenced matter and certifies that on October 5, 2021 she
mailed copies of Applicant’s Application for Extension of Time Within Which to File
a Petition for Writ of Certiorari, along with a copy of this Certificate of Service, via
FedEx, third-party commercial carrier, for delivery within 3 calendar days,
addressed to counsel of record at the following proper addresses and copies were
sent to their email addresses listed below:

Michael Pritchett

Missouri Attorney General's Office
PO Box 899

Jefferson City, MO 65102
Michael.Pritchett@ago.mo.gov
Attorney for Daniel F. Nash

Katherine Thompson
kthompson@nnlaw.com

Patrick Baird

pbaird@nnlaw.com.

2144 E. Republic Road Suite F-302
Springfield, MO 65804.
Attorneys for Dallas County, MO and James Michael Rackley

Melanie Pennycuff
Melanie.Pennycuff@ago.mo.gov
Missouri Attorney General’s Office
815 Olive Street, Suite 200

St. Louis, MO 63101

Attorney for George Knowles

_ gbabetb

Elizabeth A. Ramsey

Law Office of Robert Brooks Ramsey, LLC
10206 Manchester Rd. Suite 8

Kirkwood, MO 63122
lizramseymcintosh@gmail.com

314-651-4757

Attorney for Applicant/Petitioner
